                                                                NATIONAL SCIENCE FOUNDATION
                                                                 OFFICE OF INSPECTOR GENERAL
                                                                   OFFICE OF INVESTIGATIONS

                                                         CLOSEOUT MEMORANDUM

11   Case Number: A05030009
                                                                                               11    Page '1 of 1



                    As part of a proactive investigative review of awards with a substantial amount of funds
            allocated to participant support costs, we requested and reviewed the financial documentation for a
            workshop award.' We learned that the awardee institution2 expended funds on unallowable
            expenses, such as food and alcohol for participants. We also identified an unapproved reallocation
            of participant support costs to employee salaries. Further, the institution received reimbursement
            from NSF for a significant amount of funds which it attributed to indirect costs. Not only had the
            NSF award letter specifically precluded the awardee's ability to recover indirect costs for the
            workshop from N S F , ~but the awardee had in fact received the funds as an advance and not a
            reimbursement. We referred the matter to the United States Attorney's Office (USAO) in the
            institution's d i ~ t r i c t As
                                          . ~ a result of negotiations with the USAO, the awardee refunded $27,258.87
            to NSF and provided NSF OIG with assurances that if it receives federal funds in the future, it will
            have a compliance program consistent with the principles found in the Federal Sentencing
            Guidelines.

                       Accordingly, this case is closed.




                Funds from other sources were available to the institution for this purpose.
        -   4




I'
 NSF OIG Form 2 (11/02)
